                         UNITED STATES DEPARTMENT OF EDUCATION
                                          OFFICE OF INSPBCfOR GENERAL                   .
                                    1999 BRYAN STRBBT, HARWOOD CBNTBR, SUITB 2630
                                               DAU.AS, TEXAS 7S201-6817
                                         PHONB: (214) 88.0-3031 PAX: (214) 880-2492


                                                     FEB /6        au;
Mr. Cecil J. Picard
State Superintendent of Education
Louisiana Department of Education
P.O. Box 94064
Baton Rouge, LA 70804-9064

Dear Mr. Picard:

This Final Audit Report (ED-OIGIA06-EOOO8) presents the results of our audit of the Title I
Funds administered by the Orleans Parish School Board for the period 1uly I, 2001, through
December 31,2003. Our objective was to determine whether the Orleans Parish School Board
(Orleans Parish), through the New Orleans Public Schools, pror,rly accounted for and used .
Elementary and Secondary Education Act of 1965, as amended (ESEA), Title I, Part A (Title I),
funds in accordance with applicable laws and regulations.

We provided a draft of this report to the Louisiana Department of Education. (LOE). In its
response to our draft report, IDB officials agreed with our findings No. 1 and No.3 and
concurred with a portion of finding No.2. LDE officials provided additional suppbrt~ not
previously provided during the audit, and we reduced the amount of unsupported costs to
$51,884,155. We summarized IDE's comments in the body of this report and included a copy of
the response as an Attachment.



    I




The Title I program is authorized under the ESEA, as amended by the Improving America's
Schools Act of 1994, Public Law 103-382 and the No Child Left Behind Act of 2001, Public
Law 107-110. Title I grants are intended to help elementary and secondary schools establish and
maintain programs that will improve the educational opportunities of educationally
disadvantaged children who live in school attendance areas with high concentrations of children
from low-income families. The funds are intended to provide instruction and instructional
support for these disadvantaged children so they can master challenging curricula and meet State
standards in core academic subjects.




1 The No Child Left Behind Act of 2001 reauthorized the ESEA on lanuary 8, 2002, and the Improvina America's
Schools Act of 1994 reauthorized the BSBA on October 20, 1994.


        Our mission is to promote the efficiency, effectiveness, and integrity o/tM Department's programs and operations
ED-OIG/A06-E0008                                                                    Page 2 of 13



Title I funds are distributed from the Department of Education to States based primarily on
poverty data provided for the local education agencies by the U.S. Bureau of the Census. The
Louisiana Department of Education (LDE) disburses Title I funds to the local education agencies
based on their request for reimbursement of Title I expenditures.

Our audit period covered July 1,2001, through December 31,2003. In fiscal year 2003, the
Department of Education allocated $256 million in Title I funds to Louisiana. During our audit
period, Orleans Parish requested reimbursement for $71.8 million it disbursed for Title I
expenses. The amounts disbursed, by program year, were­

                         7/1/01--06/30/02        $29,856,669
                         7/1/02--06/30/03        $31,945,798
                         7/1/03-12/31/03         $10,021.838
                                 Total           $7l.824305


                                       UDIT RESUL-TS 


Orleans Parish did not properly account for and use nearly $69.3 million of Title I funds in
accordance with applicable regulations. Specifically, Orleans Parish received reimbursement
from Title I funds for $51,884,155 in unsupported expenditures for payroll ($39,880,892), fringe
benefits ($9,219,059), contract services ($62,130), travel ($35,397), supplies ($233,878), and
equipment ($2,452,799). Also, we are questioning an additional $17,407,118 in Title I
expenditures due to a scope limitation (see finding No.3). Orleans Parish did properly account
for and use $2,533,031 in Title I grant funds.


FINDING NO. 1- Payroll and Fringe Benefits Expenditures Were Not
               Adequately Documented

Orleans Parish was unable to provide adequate documentation to support the $49.1 million
in payroll and related fringe benefits claimed for reimbursement from Title I funds.

Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, Attachment A, Paragraph C.l (1997) provides, in part, that-

    To be allowable under Federal awards, costs must ... Be necessary and reasonable for
    proper and efficient performance and administration of Federal awards .. . Be allocable
    to Federal awards ... Be adequately documented.

Additionally, OMB Circular A-87, Attachment B, Paragraph Il.h.3 (1997) provides that-

    Where employees are expected to work solely on a single Federal award or cost
    objective, charges for their salaries and wages will be supported by periodic
ED-OIGIA06-E0008 	                                                                        Page 3 of 13


        certifications that the employees worked solely on that program for the period covered
        by the certification. These certifications will be prepared at least semi-annually and will
        be signed by the employee or supervisory official having first hand knowledge of the
        work performed by the employee.

We requested a listing of Orleans Parish employees assigned to work on Title I in order to select
a sample of payroll costs for verification and compliance with OMB cost principles. We were
not provided with an accurate or complete listing of Title I employees that matched the Title I
payroll amounts in the reimbursement claims or the project completion reports. We initially
requested the listing from the accountant who prepared the Title I claims for reimbursement. She
directed us to the Information Technology Department, and we requested and obtained a listing.
Although the list provided to us by the Information Technology Department contained names,
we were unable to reconcile the salary amounts listed with the Title I reimbursement claims.
Subsequently, the Consolidated (Title I) Program Director provided us with a list of names with
no salary amounts. Because this second listing did not have any salary data, we could not verify
or test this data against the amounts in the reimbursement claims. We also requested but never
received a listing of Title I employees from the Human Resources Department.

During our audit fieldwork, the Comprehensive Annual Financial Report of the Orleans Parish
School Board (OPSB) for the fiscal year ended June 30, 2003, was released. The certified public
accounting firm disclaimed an opinion on the OPSB 2002-2003 financial statements, stating they
could not certify the accuracy of the statements. Furthermore, the accounting firm disclaimed an
opinion on Federal awards based on the significance of uncertainties and inability to rely on the
basic accounting systems. The audit report contained 29 findings in which 23 had reportable
conditions involving matters related to "significant deficiencies in internal control over financial
reporting that ... could adversely affect the School Board's ability to administer a major federal
program in accordance with the applicable laws, regulations, contracts, and grants." The
auditors concluded in the last finding on Federal programs that, "There appears to be a serious
deficiency in the controls over coding of salaries and benefits to the program."


                                     RE~OMMENDATrO


We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
Louisiana Department of Education to-­

1.1 	      Provide sufficient documentation to support expenditures for payroll ($39,880,892) and
           fringe benefits ($9,219,059) or refund that amount to the Department of Education.

1.2 	      Require Orleans Parish to develop or improve its documentation, records storage, and
           records retention and retrieval procedures to ensure that adequate documentation of costs
           charged to Title I and other Federal grants is readily available.
ED-OIGIA06-E0008 	                                                                      Page 4 of 13



1.3 	     Require Orleans Parish to establish a formal system of management controls to ensure
          costs charged to Title I and other Federal grants are properly accounted for and used in
          accordance with applicable laws and regulations.



                         ADEPARTMENTO'FED

LDE concurred with our finding and recommendations. LOE stated in its response, "LDE
appreciates the seriousness of the issues raised in the draft audit report and acknowledges the
material weaknesses in OPSB's current grants management system."

LDE further stated that the Orleans Parish staff have been working with an expert consultant to
identify the employees paid with Title I funds and to obtain the necessary certifications, time
distribution records, or alternative documentation to justify charges to Title 1.


FINDING NO.2 - Non-Payroll Related Expenditures Were Not Documented

As part of our audit, we judgmentally selected 97 disbursements of the largest transactions from
non-duplicated vendors totaling $5,317,235 for testing from four expenditure categories-­
contract services, travel, supplies, and equipment. Orleans Parish could not provide adequate
documentation to support 24 of the transactions totaling $2,784,204. Orleans Parish provided
adequate documentation for the other 73 transactions and we accepted the associated costs of
$2,533,031.

OMB Circular A-87, Attachment A, Paragraph C.1 (1997) provides, in part, that-

        To be allowable under Federal awards, costs must ... Be necessary and reasonable for
        proper and efficient performance and administration of Federal awards .. . Be allocable
        to Federal awards ... Be adequately documented.

Contract Services - Orleans Parish was unable to provide adequate documentation to support
five disbursements totaling $62,130. Specifically, they could not locate any documentation to
support one disbursement of$13,000, approval documents for three disbursements totaling
$36,130, and a Purchase Order or a Receiving Report for one disbursement of$13,000.
Adequate documentation was provided for 20 disbursements totaling $571,381.

Travel Costs - Orleans Parish was unable to provide adequate documentation to support four
disbursements totaling $35,397. Specifically, they could not locate approval documents or
receipts for two charges totaling $25,832. For two additional charges, Orleans was unable to
provide any documentation to support charges totaling $9,565. Adequate documentation was
provided for the other 21 charges totaling $294,303.
ED-OIGIA06-E0008                                                                      Page 5 of13


Supplies - Orleans Parish was unable to provide adequate documentation to support five
disbursements totaling $233,878. Orleans Parish was unable to provIde documentation
supporting that the charges were Title I eligible or that the purchased products were received or
properly approved. Orleans Parish plans to provide adequate documentation at a later date to the
Department for evaluation. Orleans Parish did provide adequate documentation for 20
disbursements totaling $1,275,966.

Equipment - Orleans Parish was unable to provide adequate documentation to support 10
disbursements totaling $2,452,799. Specifically, one equipment charge was for the first of three
annual lease payments of $2,322,500 per year. The lease was for 39 mathematics workstations
(inclusive of computer software, computer hardware, computer furniture, and interconnecting
wiring).

This lease was awarded without undergoing competitive bidding/purchase procedures. Orleans
Parish was unable to justify either the decision to not use competitive bidding/purchase
procedures or the decision that a three-year lease was more cost effective than a purchase of the
system.

Under the Louisiana State Purchasing Rules and Regulations, purchases over $25,000 shall be
advertised as competitive sealed bid. The rules and regulations also state that if the chief
procurement officer determines in writing that there is only one source, then a contract may be
awarded without competition, but this determination requires an explanation as to why no other
source was suitable or acceptable.

       Sections ofOMB Circular A-87, provide, in part, that-

       Attachment B, Paragraph 19 equipment and other capital expenditures are personal
       property with a useful life of more than one year and a value of $5,000 or more. It also
       explains that Capital expenditures may be recovered through use allowance.

       Attachment B, Paragraph 38.d, "Rental costs under leases which are required to be
       treated as capital leases under GAAP are allowable only up to the amount that would be
       allowed had the governmental unit purchased the property on the date the lease
       agreement was executed. This amount would include expenses such as depreciation or
       use allowance ...."

       Attachment A, Paragraph C.I.a, "To be allowable under Federal awards, costs must ...
       Be necessary and reasonable ...." Attachment A, Paragraph C.2 addresses reasonable
       costs and provides that, "A cost is reasonable if, in its nature and amount, it does not
       exceed that which would be incurred by a prudent person under the circumstances
       prevailing at the time the decision was made to incur the cost."

Orleans Parish was unable to locate approval documentation for four equipment charges totaling
$88,558, nor was there any indication on the purchase orders that the equipment was to be used
for Title I purposes. We could not determine the Title I need for two additional disbursements
totaling $20,747, and Orleans Parish could not provide purchase orders or receiving reports for
EO-OIGIA06-E0008 	                                                                   Page 6 of 13


these disbursements. We also found two additional disbursements of$13,747 for which no
receiving reports were provided, and one claimed disbursement of $7,247 was found to be a
duplicate entry for which no documentation was provided. Orleans Parish provided adequate
documentation for 12 of the 22 disbursements totaling $391,381.



                                 RECOMMENDATlO 


We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
Louisiana Department of Education to­

2.1 	   Provide sufficient documentation to support expenditures for non-payroll transactions
        ($2,784,204) or refund that amount to the Department of Education.

2.2 	   Provide justification for sole source procurement or not allow future lease payments of
        $4,645,000 for mathematics workstations.




LOE agreed with all aspects of our finding, except they disagreed with our conclusions on the
$2.3 annual equipment lease payment. Regarding Recommendation 2.1, LOE noted that Orleans
Parish, " ... has located some documentation to support the questioned charges. Those
documents are attached as exhibits to this response. We request the opportunity to submit
additional documents and further request the OIG review this documentation ...."

LOE did not concur with Recommendation 2.2. Of the 33 procurement transactions that we
questioned in the draft report, LOE agreed with one of our conclusions and agreed to refund
$7,247 to the Department.

LDE stated that Orleans Parish disagreed with our conclusion that adequate documentation was
not available to support an equipment charge for the first of three annual lease payments of
$2,322,500 per year. LOE argued that the contract did not consist of three annual lease
payments, but was an installment contract to pay the purchase price over three years. LOE
acknowledged that the Orleans Parish School Board's resolution approving the contract did not
use clear terminology. The contractor originally offered to sell the software for a one-time
payment of $2.3 million or to enter into a lease-purchase agreement for $2.5 million. Under the
lease-purchase option, Orleans Parish would make installment payments over three years but at
the end would own the software. Orleans Parish was able to negotiate a three-year agreement for
$2.3 million.

LOE stated that the purchase was exclusively for software. It did not include any hardware,
computers, furniture, or wiring. "All such equipment was funded through a direct appropriation
from the federal government to the vendor, not with Title I funds."
ED-OIGIA06-E0008                                                                       Page 7 of 13


LDE stated that the software that was purchased with Title I funds was proprietary software,
available only from one source. The vendor holds a copyright to the software and is the only
vendor who sells it. Attached to the LDE response was an Orleans Parish Purchasing
Department Sole Source Justification form approving the purchase.

Lastly, LDE stated the Orleans Parish School Board conducted an appropriate price analysis
before entering into a contract and determined an installment contract was more advantageous
than a lump sum payment. The school board also determined the software was advantageously
priced as compared to other government sales by the same vendor.



                                     OIG'S RESPONSE 


We reviewed LDE's response and while we have not changed our finding, we did accept
additional supporting documentation resulting in modifications to our recommendations.
Additionally, we asked LDE to submit any additional supporting documentation obtained from
Orleans Parish to the Department of Education official responsible for audit resolution and to
provide copies to our office. We will assist the Department in reviewing the supporting
documentation when all documentation available has been provided.

We disagree with LDE's assertion that Orleans Parish used Title I funds to purchase software
exclusively. We obtained and reviewed Municipal Lease Agreement No. 3085, which was dated
August 20,2003, and signed by the vendor and the Orleans Parish School Board. The lease
agreement called for the vendor to provide an education learning system to 39 classrooms. The
system included the computers, other hardware, furniture, software, and hardware and software
maintenance for 1,170 workstations. Additionally, the vendor agreed to provide staff
development for the teachers and administrators and to "provide the infrastructure to support this
educational learning system, inclusive of electrical wiring, computer wiring, computer furniture,
computer hardware, and peripherals." Additionally, the Orleans Parish Purchase Order referred
to the initial payment of$2,332,500 as, "First Payment of three payments for thirty-nine (39) ...
classroom leases."

We disagree that Orleans Parish followed procedures and adequately justified the sole-source
procurement required by 34 C.F.R. §§ 80.36(b)(9) and (c)(3) which state-

       Grantees and subgrantees will maintain records sufficient to detail the significant history
       of a procurement. These records will include, but are not necessarily limited to the
       following: rationale for the method of procurement, selection of contract type, contractor
       selection or rejection and the basis for the contract price. . . . Grantees will have written
       selection procedures for procurement transactions.

Additionally, 34 C.F.R. §§ 80.36(c)(4) states-

       Grantees and subgrantees will ensure that all prequalified lists of persons, firms, or
       products whi h ar used in acquiring goods. and services are current and include enough
ED-OIGIA06-E0008                                                                       Page 8 of 13


       qualified sources to ensure maximum open and free competition. Also, grantees and
       subgrantees will not preclude potential bidders from qualifying during the solicitation
       period.

The Sole Source Justification Form, provided to us by Orleans Parish's Purchasing Department
and dated November 25, 2003, did not provide the rationale for using the vendor selected. After
we asked Orleans Parish for the written details, the vendor sent a letter dated April 24, 2003,
stating, "JRL Enterprises is the sole manufacturer and distributor of I CAN Leam© Education
Systems." While the one-page letter stated that JRL Enterprises was the sole source, Orleans
Parish never provided us with documentation drafted at the time the sole source occurred
justifying the procurement method used or the basis for the contract price.

Furthermore, the Orleans Parish's chief procurement officer did not sign the sole-source
justification provided by LDE nor did it contain a written determination and justification by the
procurement officer to use sole source. The Orleans Parish Director of Compliance did not
approve the sole source justification, as is required by school policy, and he refused to approve
the purchase requisition. Additionally, the Director of Purchasing stated in a letter to the
Director of Compliance that, "This contract was negotiated without any Purchasing involvement
and resulted in unusual terms and conditions outside normal Orleans Parish School Board
Operating Policies."

Orleans Parish was unable to demonstrate that it conducted the procurement transaction in a
manner providing full and open competition. Therefore, we have not changed our
recommendations.


FINDING NO.3 - Questioned Expenditures Due to Audit Scope Limitation

Other costs totaling $17,407,118 were charged to Title I during our audit period. We question
these costs due to an audit scope limitation and the possibility of significant unsupported costs
based on the high incidence of unsupported costs in the amounts we did audit.

At the completion of our audit Lieldwork we requested a management representation letter from
Orleans Parish officials. The Government Auditing Standards, paragraph 7.54, suggests that
auditors obtain a written representation letter in order to confirm representations and to reduce
the possibility of misunderstandings.
ED-OIGI A06-E0008 	                                                                      Page 9 of 13



In his representation letter to us, the Orleans Parish Superintendent made the following
statements:

   " ... .In that connection, we confirm that to the best of our knowledge and belief:

   • 	 There may exist irregularities involving management or employees who have or had a
       significant role in New Orleans' compliance with the Department's requirements
       contained in the Elementary and Secondary Educational Act (ESEA) of 1965, as
       amended, Title I.

   • 	 There may be irregularities involving any persons, outside consultants for example, that
       could have a material influence on the compliance with the requirements contained in the
       ESEA of 1965, as amended, Title I.

    • 	 There are material transactions that may have not been properly recorded in the
        accounting records related to compliance with the Department's requirements contained
        in the ESEA of 1965, as amended, Title I.

    • 	 We have furnished all documents and reports requested during the course of the audit but
        they may not be accurate nor complete.

    • 	 We have complied or disclosed any noncompliance with all laws and regulations 

        pertaining to the ESEA of 1965, as amended, Title I. 


    • 	 The computer-processed data and related records provided to your staff fairly present the
        administration of our computer system for July I, 200 I through December 31, 2003.
        However, the data and related records may not be reliable when used for their intended
        purposes. "

The Orleans Parish Superintendent also informed us that because he had recently implemented a
task force to target corruption within the school system, he could not possibly assure us that aU
Orleans Parish records were accurate or that the unaudited $17,407,118 in costs claimed were
reasonable, allowable, and allocable.

We believe several factors contributed to the cause of these serious deficiencies including a
lack of adequate controls in Orleans Parish's accounting system. During our audit, we
learned that over 50 employees had open-system access to the Oracle Computer System.
Open-system access allows individual employees to change financial and operational data
outside of their functional department (Human Resources, Payroll, Payables, and Finance).

We also learned that basic security features to track changes in the Oracle system were
either not set up properly or were overridden. As a result, Orleans Parish has never made
use of the auditing feature in its Oracle software, which would be useful to determine who
performed specific actions or to detect any malicious or unauthorized activities.
ED-OIGIA06-E0008 	                                                                      Page 10 of 13


Additionally, the 2002-2003 Single Audit described significant deficiencies and the auditors
disclaimed an opinion on Federal awards based on the significance of uncertainties and
inability to rely on the basic accounting systems.

An audit scope limitation was encountered when the Superintendent could not assure us that
records provided were reliable, the payroll computer system was accessible to over 50 employees,
payroll records were not provided to us, lists of Title I employees were not provided to us, many
expenditures sampled were not properly documented or were unlocatable, and the Single Audit
auditor disclaimed an opinion on Federal awards due to significant deficiencies and the inability
to rely on the accounting system.



                                   RECOMMENDATIO S 


We recommend that the Assistant Secretary for Elementary and Secondary Education instruct the
Louisiana Department of Education to-­

3.1 	   Provide sufficient documentation to support $17,407,118 or refund that amount to the
        Department of Education.

3.2 	   Require Orleans Parish to establish adequate controls in its accounting system to ensure
        costs charged to Title I and other Federal grants are properly accounted for and used in
        accordance with applicable laws and regulations.




LDE concurred with our finding and recommendations. LDE stated in its response that Orleans
Parish takes this finding very seriously, as it highlights significant problems that contributed to
Findings 1 and 2. LDE stated Orleans Parish would continue to investigate the finding and to the
best of its ability, develop a list of specific Title I charges for the school's internal audit staffto
review for allowability under Title I regulations. LDE stated that it would then work closely
with the Department of Education to resolve any remaining claims for unallowable expenditures.


                                                                       ENTS

On May 25, 2004, we issued Interim Audit Memorandum State and Local No. 04-03 to the
Department's Chief Financial Officer and the Assistant Secretary for the Office of Elementary
and Secondary Education. In the Memorandum we advised the Department of Education
(Department) of the need to designate Orleans Parish as a high-risk grantee and to impose special
conditions on all current and future awards to Orleans Parish. We also recommended that the
ED-OIGI A06-E0008 	                                                                     Page 11 of 13


Department advise the LDE to consider placing special conditions on grants it makes to Orleans
Parish that include Federal funds .

On July 16,2004, the LDE notified the Department that beginning July 1,2004, the Orleans
Parish School District was considered to be in a "high risk" status for all Federal grant programs.
The LOE cited 34 C.F.R. § 80.12, which states that a sub grantee may be considered high risk if
an awarding agency determines that a subgrantee: "(3) has a management system which does
not meet the management standards set forth in this part .. . ." The LOE also noted that,
" [a]ccording to this law, an acceptable financial management system must provide adequate
financial reporting, recordkeeping, internal controls, budget control, allowable costs, and cash
management. "

The LOE required Orleans Parish to meet certain conditions before the State would allocate
Federal funds for fiscal year 2004-2005. These conditions include requiring Orleans Parish to:

        I. 	 Submit specific documentation to substantiate all expenditures for future requests for
             funds for all Federal programs.

       2. 	 Engage an independent certified public accountant to conduct a performance audit in
            which the efficiency and effectiveness of all fiscal operations, including but not
            limited to payroll, budget, contracts, procurement, and grants management, are
            examined.

       3. 	 Submit a detailed corrective action plan to specifically address all findings identified
            in the performance audit.

       4. 	 Provide a report on the benefits of outsourcing all or a portion of the district's fiscal
            processes and duties, including payroll, budget, contracts, and grant management.

       5. 	 Develop a structured system improvement plan containing timetables, measurable
            goals and priorities for, among other things, organizational and budgetary changes.

In response, the Orlcarts Parish Superintendent stated that he understood the seriousness of the
high-risk status and intended to adhere totally and completely to all conditions, procedures and
performances.



                   OBJECTIVE, SCOPF}, AND ME11IODOL~~Y _ 


The objective of our audit was to determine whether the Orleans Parish, through the New
Orleans Public Schools, properly accounted for and used Title I, Part A grant funds in
accordance with the ESEA of 1965, as amended, EDGAR, and the cost principles in OMB
Circular A-87.
ED-OIGIA06-E0008 	                                                                  Page 12 of 13


To accomplish our objective, we­

   • 	 Reviewed the financial statements and OMB Circular A-133 audit reports for the years
       ended June 30, 2002 and June 30, 2003;
   • 	 Reviewed Orleans Parish's Title I grant application and budget narrative;
   • 	 Reviewed Orleans Parish's Grant Performance Reports;
   • 	 Reviewed Orleans Parish's School Board Minutes for the meetings of November 26,
       2003 and June 16, 2003;
   • 	 Reviewed written policies and procedures for budgeting, accounting, procurement,
       payroll, and fringe benefits for the Title I grants;
   • 	 Judgmentally selected 97 of the largest transactions from non-duplicated vendors and
       traced them to supporting documentation. The reviewed transactions account for
       $5,317,235 or 23 percent of the total dollars expended to vendors. We reviewed 20
       transactions for fiscal year 2001-2002, 60 for fiscal year 2002-2003, and 17 for part of
       fiscal year 2003-2004; and
   • 	 Interviewed various Orleans Parish employees and LDE officials.

We were unable to obtain and verify the accuracy, completeness, and reliability of computer­
generated data documenting payroll charges for employees assigned to work on the Title I grant
program. Even though we made several requests for data from Orleans Parish officials, they
were unable to provide us with a list of Title I employees and the amounts charged to Title I for
each employee. However, to achieve our audit objective for reviewing non-payroll transactions,
we relied, in part, on computer-processed Title I funds request forms submitted to the LDE by
Orleans Parish. We verified the completeness of the data by comparing source records to
computer-generated request forms, and verified the authenticity by comparing computer­
generated request forms to source documents.

We conducted our fieldwork at Orleans Parish Public Schools' Central Office between February
9, 2004, and April 1, 2004. We discussed the results of our audit with Orleans Parish officials on
March 31 , 2004. An exit conference was held with LDE officials on August 31, 2004.

Except as described above and the scope limitation described in Finding No.3, our audit was
performed in accordance with generally accepted government auditing standards appropriate to
the scope of audit described above.


                    STATEMENT ON INTERN 


Our assessment of Orleans Parish's internal control structure was limited to those areas identified
while conducting substantive tests of costs charged to the Title I grant. Our audit disclosed a
significant lack of internal controls, which adversely affected Orleans Parish's ability to
administer Title I funds. Specifically, we concluded that Orleans Parish needs to improve its
internal controls related to the maintenance and retention of payroll, personnel, and financial
records, reviews and approval of transactions charged to Title I, and using competitive bidding
ED-OIG/A06-E0008                                                                     Page 13 of 13


practices for significant equipment purchases. Those weaknesses and their effects are identified
in the AUDIT RESULTS section of this report.




Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution ofthis audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                      Raymond J. Simon
                      Assistant Secretary
                      Office of Elementary and Secondary Education
                      U.S. Department of Education
                      400 Maryland Avenue, SW
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with Freedom ofInformation Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.


                                                     Sincerely,


                                                     lsi
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                      for Audit

Attachment
                                                                                                                                             ATTACHMENT


                Summary of Unsupported Costs, Other Questioned Costs, and Allowed Costs of 

                              Title I Funds Administered by Orleans Parish 

                         For the Period July 1,2001, through December 31, 2003 


                                                            Unsupported Costs

" .
                                                                                                                        2003-2004
       Fiscal Year                   2001-2002                        2002-2003                                          through                 Totals
                                                                                                                       Dec 31, 2003

                Salaries           $17,713393.64                 $16477 993.49                                              $5,689,505.34     $39,880,892.47
  Fri n~e Beneti ts                 $3,320,717.49                 $4529917.02                                               $ 1,368,424.09     $9,2 ]9,058.60
      Payroll Total                $21,034,111.13                $21,007,910.51                                             $7,057,929.43     $49.099,951.07

                Contract
                                             I 980.00                         $60 ]49.63                                            $0.00         $62 129.63
           ~ervices
                 Travel                  $25,832.32                          $5,964.79                                          $3600.00          $35,397.11
            Supplies                          $0.00                        $233,878.33                                              $0.00        $233,878.33
           Equipment                     $88,558. 14                        $41,741.16                                      $2 322 500.00      $2,452 799.30
      Non-payroll
                                       $116,370.46                         $341,733.91                                      $2326100.00         2,784,204.37
        Total
       .             . i;:,r' : i : '}J;',~lr ;Y;$'t"~':f   ' :';:: , :C\!, ;i''il',~';   c.:'; ;   j •.)C":   :'1''1:ii
                                                                                                                     <:;'
      Unsupported
                                   $21,150,481.59                $21,349,644.42                                             $9,384 029.43     $51 ~884l155.44
      Expenditures

                                                            Questioned Costs
         Other
       Questioned
      Costs - Audit                  $7,961,842.05                   $8,858,752.45                                           $586,523.79      ~17 24072118.29
         Scope
       Limitation


                                                                 Allowed Costs
       ' >1
                                                                                                                         2003-2004
      .~ cal
           ..
                       e.ae           2001-2002 ~7t~ 1               2002-2003                                            through                Totals
                                                                                                                        Dec 31. 2003

                Contract
                                       $1970 4.55                         $367,216.10                                          $ 7080.00         $571 380.65
                Services
                 Travel                $ 96,502.49                        $185,420.99                                          $ 12,379.80       $294303.28
                Supplies               $418,050.02                        $840,691.61                                          $17,224.85      $1,275,966.48
           Equipment                   $ 32708.00                         $344,072.83                                          $14,600.00        $391,380.83
      AlJowed Co ts
                                       $744,345.06                   $ 1 737401.53                                             $51,2 4.65      ~2z53J I OJ 1.24
          Total
"

                                    STATE OF LOUISIANA 	                               Attachment
                       DEPARTMENT OF EDUCATION
            POST OFFICE BOX 94064, BATON ROUGE, LOUISIANA 70804-9064 

                              Toll Free #: 1-877-453-272 1 

                                         http://www.doe.state.la.us 


     January 14,2005



     Sherri L. Demmel
     Regional Inspector General for Audit
     U.S. Department of Education
     Office of Inspector General
     1999 Bryan Street, Suite 2630
     Dallas, Texas 75201-6817

     Dear Ms. Demmel:

     On November 17, 2004, the Louisiana Department of Education (LDE) received Draft
     Audit Report, ED-OIGIA06-E00008, regarding the Orleans Parish School Board. The
     Louisiana Department of Education appreciates the opportunity to respond to the Office
     of Inspector General's (OIG) findings outlined in its draft audit report. This response
     was originally due thirty days after the date of the letter. On December 18, 2004, the
     LDE requested an extension to respond to the findings. The OIG granted the extension
     and required that this response be submitted no later than January 14,2005.

     Attached is a copy of the Louisiana Department of Education's response to the findings.
     If you have questions, please contact Dr. Robin Jarvis, Assistant Superintendent of the
     Office of Student and School Performance, at 225-342-3513 or use the toll-free number
     listed above.

     Thank you for your cooperation.




     Enclosures

     c: 	   Marlyn J. Langley
            Robin Jarvis, Ph.D.
            Beth Scioneaux


                                  ~~n   Equal Opportunity Employer"
                                                                                       Attachment




                       Louisiana Depa,r tment of Education
                Response to Draft Audit Report: ED-DIGIA06-E0008

                                      Submitted to: 

                                    Sberri L. Demmel 

                          Regional Inspector General for Audit 

                             U.s. Department of Education 

                              Office of Inspector General 

                             1999 Bryan Street, Suite 2630 

                               Dallas, Texas 75201-6817 




The Louisiana of Education (LDE) appreciates the opportunity to respond to the Office
of Inspector General's (OIG) findings outlined in its November 16,2004, draft audit
report about the use of Title I funds administered by the Orleans Parish School Board
(OPSB). This response was originally due thirty days after the date of the letter;
however, OIG granted an extension and required that this response be submitted no later
than January 14,2005.

LDE is working closely with OPSB to investigate the specific fmdings described in the
draft report. Additionally, LDE has hired Grover Austin, an expert consultant with
extensive prior audit experience, to work with Orleans Parish staff to locate and/or
reconstruct necessary or missing documentation. Mr. Austin is a former state legislative
auditor who is familiar with federal fiscal and administrative requirements, as well as
with the Orleans Parish School System. Orleans Parish is devoting significant staff
resources to work with Mr. Austin.

As discussed in more detail below, OPSB has located some documentation to support the
questioned charges. Those documents are attached as exhibits to this response. We
request the opportunity to submit additional documents and further request the OIG
review this documentation before issuing a final audit report. OPSB is gathering the
additional documentation and will send it to OIG promptly.

LDE appreciates the seriousness ofthe issues raised in the draft audit report and
acknowledges there are material weaknesses in OPSB's current grants management
system. Indeed, in response to these weaknesses and well before the issuance of this
audit report, LDE placed the Orleans Parish School District (the District) on "high risk"
status for all federal grants on July 16, 2004. As part of this status, LDE has attached
special conditions to all allocations of federal funds to the District. Under the special
conditions, the District must:

      •   Submit specific documentation to substantiate all expenditures of federal funds.
.
•
                                                                                             Attachment 


              • 	 Engage an independent certified public accountant to conduct a perfonnance
                  audit to examine the efficiency and effectiveness of all fiscal operations.

              • 	 Provide a report on the benefits of outsourcing all or a portion of the District's
                  fiscal processes and duties.

              • 	 Develop a structured system improvement plan containing timetables,
                  measurable goals and priorities for organizational and budgetary changes.

      LDE and OPSB are committed to addressing these weaknesses and to strengthening the
      District's controls so it can better administer federal funds. In accordance with the
      special conditions, OPSB, under the oversight ofLDE, is drafting detailed workplans
      with specific corrective action items. These workplans will focus on:

         •	    Payroll
         •	    Procurement
         •	    Budget
         •	    Grants Management
         •	    Financial Management, including recordkeeping, reporting, internal controls and
               cash management

      In addition to the external expertise of Grover Austin, OPSB has retained Deloitte &
      Touche to conduct a perfonnance audit of the District's fiscal operations. Deloitte and
      Touche will provide OPSB with recommendations for systemic improvements. These
      recommendations wi11lay a foundation for the District's corrective action workplans.
      LDE will monitor this process and provide technical assistance where appropriate.

      LDE and OPSB are also committed to addressing the specific issues raised by the draft
      audit report. LDE has the following responses to the auditors' findings:

      Finding No.1 - PayroU and Fringe Benefits Were Not Adequately Documented

      The auditors found OPSB did not have sufficient documentation to support $49.1 million
      in payroll and related fringe benefits claimed for reimbursement from Title I funds. DIG
      recommended OPSB provide the necessary documentation or return the funds to the U.S.
      Department of Education. District staff have been working with Mr. Austin to locate the
      documents necessary to support the questioned payroll benefits. Unfortunately, a
      hardware failure caused the loss of all electronic claims filed with LDE. Thus, DPSB
      will be unable to reconcile expenditures in the general ledger to the claim documents
      filed with LDE.

      District staff will continue to work with Mr. Austin to identify the employees paid with
      Title I funds and to obtain any necessary certifications, time distribution records, or
      alternative documentation to justify the charges to Title I. Although we initially believed
      the District was missing critical payroll documents, District employees have just located
      extensive documentation related to these expenditures. These documents include a


      LDE Response to Draft Audit Report ED-OIG/A06-EOOO8                                       Page 2
., 	.   

                                                                                                 Attachment 


            of teachers supported with Title I funds and associated time and effort certifications. Mr.
            Austin is reviewing these documents to determine if they are sufficient to support the
            questioned charges. Ifnecessary, Mr. Austin will also continue to review existing
            documentation to detennine whether any reconstruction is possible. Finally, OPSB will
            review its current payroll procedures to identify areas that can be improved. OPSB will
            pay particular attention to the following areas:

                • 	 Internal Controls - OPSB will concentrate on increasing controls over its
                    payroll system to ensure federal funds are properly allocated based on employees'
                    time and effort, consistent with appropriate federal cost principles. For example,
                    OPSB will ensure employee functions are properly segregated.

               • 	 Document Retention - A vital component ofOPSB's workplan will be
                   developing an improved system for the retention, maintenance and retrieval of
                   necessary accounting and other payroll records. Part of this system will include
                   ensuring all necessary payroll reconciliations are performed appropriately.

                • 	 Training - OPSB will provide training to all employees involved in federal
                    programs. Trainings will focus on appropriate payroll certifications, record
                    retention, and crosscutting administrative and fiscal management (e.g., OMB
                    Circulars, EDGAR, and other requirements).

            OPSB will consider other areas in need of improvement, especially any recommendations
            included in the Deloitte & Touche report.

            Finding No.2 - Non-PayroU Related Expenditures Were Not Documented

            The auditors found Orleans Parish could not provide adequate documentation to support
            thirty-three procurement transactions. These transactions fell into the following
            categories: contract services, travel, supplies, and equipment. OIG recommended OPSB
            either provide the necessary documentation or return $3,142,286 to the U.S. Department
            of Education. OPSB disagrees with some of the conclusions reached by the auditors.

            Contract Services
            The auditors concluded OPSB could not provide adequate documentation to support
            disbursements made for contract services. Specifically, the auditors noted:

                • 	 OPSB could not locate any documents to support one disbursement of $13,000.
                    OPSB has located invoices and other supporting documents for this disbursement
                    and will make them available to OIG for its review.

                • 	 OPSB could not locate approval documents for five disbursements totaling
                    $182,635. For two of these disbursements, OPSB has located the requisite
                    approval documents. Attached as Exhibit A is an excerpt from the minutes of a
                    November 12,2001, OPSB meeting. These minutes reflect that OPSB approved a
                    contract with Xavier University at a cost not to exceed $70,000. The auditors


            LDE Response to Draft Audit Report ED-OIG/A06-EOOO8 	                                  Page 3
                                                                                 Attachment

         questioned a $25,000, payment made under that contract. Attached as Exhibit B
         is an excerpt from the minutes of an August 12, 2002, OPSB meeting. These
         minutes reflect OPSB approved a contract with Sylvan Education Solutions in the
         amount of $1,496,036. The auditors questioned a $121,504.80 payment made
         under that contract. For the remaining three disbursements, OPSB will provide
         OIG with an acknowledgement from the appropriate supervisors that they
         approved the purchases and used the items for allowable Title I purposes.

   • 	 OPSB could not provide a purchase order or receiving report for one 

       disbursement of$13,000. OPSB will provide OIG with an acknowledgement 

       from the appropriate supervisor that District personnel purchased the item in 

       accordance with the District's policies and procedures, received the item, and 

       used it for allowable Title I purposes. 


Travel
The auditors also concluded OPSB could not provide adequate documents to support five
disbursements made for travel costs. Specifically, the auditors noted:

   • 	 Orleans Parish could not provide approval documents for three charges totaling
       $91,400. For one disbursement OPSB has located the requisite approval
       document. Attached as Exhibit C is an approval memorandum dated July 30,
       2002. The memorandum reflects an appropriate OPSB official approved a
       contract with Radisson Hotel of New Orleans for meeting rooms and catering
       services for the Annual Special Education Conference for Exceptional Children's
       Services and Title I Pre-Service. The auditors questioned a $65,568 payment
       under this contract. For the remaining two disbursements, Orleans Parish will
       provide OIG with acknowledgements from the appropriate supervisors indicating
       they approved the travel for allowable Title I purposes. For two of these charges,
       Orleans Parish will provide receipts that were obtained from the vendors.

   • 	 Orleans Parish could not provide any documentation supporting two
       disbursements totaling $9,565. Orleans Parish will provide OIG with
       acknowledgements from appropriate supervisors that they approved the travel for
       allowable Title I purposes and other supporting documentation.

Supplies
The auditors concluded OPSB could not provide adequate documents to support ten
disbursements for supplies. Specifically, the auditors noted:

   • 	 OPSB could not provide documents to prove eight disbursements totaling
       $267,548 were for eligible Title I purposes or that the products were received or
       properly approved. For three of these disbursements, OPSB has located some
       supporting documentation. Attached as Exhibit D is a receiving report indicating
       supplies from Wright Learning were received on December 11, 2002. These
       supplies totaled $9,842. Attached as Exhibit E is an invoice from Successful for
       All              Inc. for $10,870. Sharon L. Paul          the inv()ice~



LDE Response to Draft Audit Report ED-OIG/A06-EOOO8                                         4
                                                                                      Attachment

       acknowledging the supplies were received. Attached as Exhibit F is a purchase
       order and corresponding invoice for supplies totaling $12,958. These supplies
       were purchased from Corporate Business Supplies. OPSB will provide additional
       supporting documents, including acknowledgements from the appropriate
       supervisors that they approved the purchases, the items were received, and they
       were used for allowable Title I purposes.

   • 	 OPSB could not provide documentation justifying two sole source purchases
       totaling $105,983. OPSB has located the requisite documentation. Attached as
       Exhibit G is an OPSB Purchasing Department Sole Source Justification form for
       the Race for Reading Program. The form is dated June 20, 2002, and approves a
       sole source contract with Project 59 for Youth Foundation, Inc. OPSB
       determined there are no regional distributors and that this is the only program that
       would meet the department's specialized needs. A letter from the vendor
       certifying it is the only vendor selling the reading program is also included.
       J\ttached as Exhibit H is a sole source approval for a contract with Lightspan
       Partnership, Inc. for additional Lightspan program instructional materials. OPSB
       determined a sole source contract was appropriate because the school already had
       an existing Lightspan program in place, but wanted to expand the program to
       other grade levels. Lightspan holds all relevant copyrights and is the only vendor
       that could provide the additional material. A letter from the vendor confirming its
       intellectual property rights is included.

EqUipment
The auditors concluded OPSB could not provide documents to support three annual
leases for thirty-nine mathematics workstations, including computer software, hardware,
computers, furniture, and interconnecting wiring. These contracts were sole sourced.
OPSB respectfully disagrees with the auditors' conclusions. The contract did not consist
of three annua11eases, but was an installment contract to pay the purchase price over
three years. OPSB acknowledges its resolution approving the contract did not use clear
terminology. JRL originally offered: (1) to sell the software for a one-time, upfront
payment of $2.3 million; or (2) to enter into a "lease-purchase" agreement for $2.5
million. Under the lease-purchase option, OPSB would make installment payments over
three years but at the end would own the software. OPSB negotiated with JRL and was
able to enter into the three-year agreement for $2.3 million. Attached as Exhibit I is a
memorandum from an LDE attorney describing the background of the contract.

This purchase was exclusively for software. It did not include any hardware, computers,
furniture or wiring. All such equipment was funded through a direct appropriation from
the federal government to the vendor, not with Title I funds. This is confirmed by LDE's
attorney in Exhibit I.

The software that was purchased with Title I funds was proprietary software, available
from only one source. The vendor holds a copyright to the software and is the only
vendor who sells it. Attached as Exhibit J is a letter from JRL confirming it holds



LOE Response to Draft Audit Report EO-OIG/A06-EOO08                                   Page 5
                                                                                                 Attachment


exclusive patents to the software. 1 This software is listed on the U.S. Department of
Education's website, "What's Working in Education," as a best practice in Education.
The Louisiana Public Bid Law (Title 38 ofthe Louisiana Revised Statutes), as well as the
policies and procedures adopted by OPSB, allow the school board to enter into non­
competitive contracts for proprietary software available from only one source. These
rules are consistent with federal regulations, which allow grantees and subgrantees to use
non-competitive procedures when ''the item is available only from a single source." 34
CFR § 80.36(4). Attached as Exhibit K is an OPSB Purchasing Department Sole Source
Justification form approving the purchase.

The auditors also questioned why OPSB entered into a three-year agreement with the
vendor. Under the contract, the vendor absorbed all interest costs. The school board only
paid for the direct cost of the software. Before entering into the contract, the school
board conducted an appropriate price analysis and determined the installment contract
was more advantageous than a lump sum payment. The school board also determined the
software was advantageously priced as compared to other governmental sales. Attached
as Exhibit L is a price analysis reflecting the price paid by OPSB compared to the prices
paid by two other states. Based upon this comparison, it is evident OPSB paid a
competitive price.

The auditors also noted:

    • 	 OPSB could not provide adequate documents to support four disbursements 

        totaling $88,558. OPSB will provide OIG with documents indicating the items 

        were properly ordered in accordance with District policies, the items were 

        received, and were used for approved Title I pwposes. 


    • 	 OPSB could not identify how three equipment charges totaling $27,103 benefited 

        the Title I program. For two of these charges, the auditor concluded OPSB could 

        not provide purchase orders or receiving reports. For one of these charges, OPSB 

        has located an invoice and acknowledgement of receipt. Attached as Exhibit M is 

        an invoice from Audio Visual Mart for equipment totaling $6,356. An employee 

        signed the invoice to acknowledge the items were received. For another charge, 

        OPSB has located an invoice, which is attached as Exhibit N. OPSB will provide 

        OIG with a letter documenting the Title 1 program's need for the questioned 

        items. Further, OPSB will provide acknowledgements from the appropriate 

        supervisors indicating the items were purchased in accordance with the District's 

        policies, the items were received, and they were used for allowable Title I 

        purposes. 


    • 	 OPSB could not provide receiving reports for two disbursements totaling $13,747.
        OPSB can provide acknowledgements from the appropriate supervisors indicating

I Please note, the letter was emailed to OPSB. The word processing software contains a macro that 

automatically updates the date in the docUlllenl Although the document is dated December 8, 2004, it was 

in fact signed in Apri12003. 'Ibis is ccnficmed by the accompanying printout of tbe en:uril from JRL to 

OPSB, which is dated April 24, 2003. 



LDE Response to Draft Audit Report ED-OIG/A06-EOOO8                                                Page 6
                                                                                  Attachment 


       the items were purchased in accordance with the District's policies, the items
       were received, and they were used for allowable Title I purposes.

   • 	 OPSB made duplicate disbursements of $7,247. OPSB agrees with the auditors
       and will refund $7,247 to the U.S. Department of Education.

OPSB acknowledges the auditors identified weaknesses in its procurement procedures.
OPSB will review its current procedures to identify areas that can be improved. OPSB
will pay particular attention to the following areas:

   • 	 The Approval Process - As part of strengthening its management controls,
       OPSB will review each "decision point" to ensure the appropriate supervisors
       approve appropriate decisions. Ifnecessary, OPSB will document these levels of
       review and train employees on how to get approval ofpurchase requests.

   • 	 Justification of Purchases - OPSB has adopted policies and procedures that are
       consistent with state and federal law. However, OPSB will review those
       procedures to determine if they need to be clarified or improved. Specifically,
       OPSB will review its procedures related to sole source contracts. OPSB will also
       provide training to ensure employee properly implement all procurement
       procedures.

   • 	 Document Retention - As discussed in Finding No. 1 above, a vital component
       ofOPSB's workplan is to develop a process to retain and safeguard all necessary
       documentation.

Finding No.3 - Questioned Expenditures Due to Scope Limitation

The auditors questioned an additional $17,407, in Title I expenditures due to an audit
scope limitation. OPSB notes there is no evidence these expenditures were inappropriate.
OPSB takes this finding very seriously, as it highlights significant problems that
contributed to Findings 1 and 2. As described above. OPSB is fcIming a task force and
drafting detailed workplans with specific corrective action items to dramatically improve
the District's financial management system.

District staffwill continue to investigate this finding. To the best of its ability, OPSB
will develop a list of the specific Title I charges and the OPSB internal audit office will
audit the list to ensure all expenditures were allowable under Title I. LDE will then work
closely and cooperatively with the U.S. Department of Education to resolve any
remaining claims for unallowable expenditures.




LDE Response to Draft Audit Report ED-OIG/A06-EOO08                                     Page 7
                                                                                                    Attachment



•
                                                                                         SEcnON C - Page 8
                                                                                            November 12, 1001

e·   SECTION C: CONSENT rmMS
     VI)     UNIVERSITY COURSES LEARNING ACADEMIES aDd mGB PRIORITY SCHOOLS

     Seventy-five particip8llts including teachers and principals from tbe Learning Academics and high­
     prio~ schools will be selected. to puticipate in specific:ally designed araduu.levc1 university courses.
     The selection criteria for pardcipan1s wUl be based 00 tho first seventy-fivo toach~ and principals who
     wish to enroll in the prosrmn. All participants must meet the univoaity requirements and standards. If
     the enrolhnent faUs below seventy-five, teachers and prin~jpal. from the remaining corrective action
     scbools wiJI became elisible to participate. This initiative wiD beoome operational at I cast not 10 ex.ceed
     S70,000.00 per semester.

     JASA, Title lIConsoJidated Programs and Professional Development. in collaboration with Xavier
     Universi.t;y and the Department of Curriculum, 1DstructiOD and Educational Support Program, have
     identified courses 1hat aliF with the districes iD.Stru:ctiOllal focus, State 1U1d Local StaDdarcls, hiah-stakes
     testing. and other initiatives that promote student leamins. Course syUabi. textbooks. Instructional
     materials, follow-up and support services will be selected andlor developed to compJomont the curriculum
     for the New Orleans Public Schools. The COUrse5 wlll be structured in a way that offers teacbers imd
     principals the opportunity to:

                                      • 	 become a certified reading specialist;
                                      • 	 apply and assess teamed ~h-based practices;
                                      • 	 .ineroase knowledge in the weas of readinit writing, mathematics, and
                                          teclmoloiY;
                                      • 	 participate in ' a teacher-exchan&e program, peer coacbins and
                                          foauslsmdy groups sessions. and
                                      • 	 teeeive school-aite support and assistance· from university professors as
                                          practices taught in the COW'SII are impJemented in the classroom.

     Additionally. teachers and principals will gain etrective teac::bjng and JcamiDg pt1)Ctices Wrou,gh
     proven professional development that bas an impact tbat is fu RIIIching. Participation en the courses
     WillGIlSUfe sustained lamina opponunItioa and tho potcDtial to increue acedondc performance fortbousaDds of
     students. The c::ourse offcrinp will beJiD dudoa tha upcomiDg sprlna session.

     lnstnlc1ional Technology                     Teachina Readina and Writing in tho Content Areas
     Adv. mit. Tech LA 1NTECH                     Mathematics the Workshop Way
     FOUndatioil of Reading                       Practicum in R.eading
      (Methods ofTeadl.1ng Reading)               Special Problems in Research for AdministratOJ1l
      Diagnostic and Prescriptive Reading         (Clinical      Supervision   IUld   Supervisory   .Approaches    to
                                                  Instruction)

      RECOMMENDATION:              That the Orleans Parish SChool Board approve the graduate cow:ses to
      be cODducted at Xavier University for teachers aDd principals from the Learning Acadenues and
      High~Priority Schools during the Spring 2002 semester at a total cost not to exceed $70,000.00.
      Funds arc available in the Title 1 Atoountability Gtant.
                                                                                                      Attachment




, -   '




                                                                                              SECTION D - PAGE 6
                                                                                                      Augu.t 11, 1001

          D~ONOFnNAN~SER~~


          03-%.021 	   THIRD    PARTY CONtRACT lOR SUPPLEMENTAL EDUCATIQNAL SEIMCES
                       FOR TtfLE I NQN:PJ1BLJC SCHQ9LS <REOUISI FOIP.ROPQML N<l 77.12)
                       Two proposali were recelved from flnnI to provide educational MrVices for Tide J non public
                       schools. Tho pR)pOIalt wens revillMd by • ScneniI1l and Evaluation Committee composed of
                       repmentadv. &om Punsblsing. the Arehdiocese ofNft Orleans and Titl~ l. Sylvan Education
                       Solutions was selected beeluso of its experiaace. prior performance and east.
                       Funds are available in tho Title J Budpt. The toeal cost ofthis contract is not to exceed
                       SI,496.036.00 for1beperiocl September 1,2002 dU'Dup AllauR 31'. 2003 with the option to
                       renew for 1hreo (3) additional yean if mutually agreeable undor the same lenns and conditions.
                       Tho PurchuinS and P~ment Committee blS reviewed this recommendation. The Board
                       General Counscf wW preparo the con1l'8Ct.                                                 '

                       RECOMMENDATlON: 	               That the Orleans Parish Scbool Board accept the proposal to
                                                       enter into a contract with S)'lv8J1 Education Solutions in the
                                                       amount ofSl.496.016.00 as previously listed. (Item ff03-2.021
                                                       is funded in the Title I Budget).
         ·..,. 	
         . ~                                                                                                                                  Attachment
    '"
J

         t	                                            MATERIALS & SUPPLIES $97,126.50
                   REJ\'TAL OF MEETING ROOMS & CATERING SERVICES FOR ANNUAL
                   SPECIAL EDUCATION CONFERENCE FOR EXCEPTIONAL CHILDREN'S
                   AND TITLE I PRE-SERVICE ON AUGUST7-2, 2002 PROPOSAL #7739)

                   ReguestQrlsl:
                                                                                                                                  1Ex-(~1i nnAl   Children's

                   Approvmg Administrative Officer:

                   Designation by                       ComplJpD~                   orocer:                      General Bid

                   Advertisement Dates: 	                                                                 Times Picayune
                                                                                                          July 19, 2002

                   Opened:                         Monday;. July 29, 2002

                   Vendors Receiving Bids:                                          13 	                                Vendors Responding:           1




                   Bacl<ground ipformatioD
                   These services are needed to faci1itat~ the Annual Special Education Conference held by
                   Exceptional Childrent s Services and the Pre-Service held by the Title I Department The
                   Radisson Hotel ofNew Orleans submitted the only bid meeting the specificationS. Funds
                   are available in the Exceptional Children's Services and Title I Accounts. The total cost
                   ofthis pUIChasc is $97,126.50.


                   PREPARED ON                                                                                   BY:




                   REVIEWED ON                                                     'i1?l'102                     .BY:




                     UTH ORIZED BV                                                 ,~
                                                                                   f      /,,';.
                                                                                            .... '\If 10"'>
                                                                                                         .....    BY:




                                                                                                                                                               I
                     ~   . . .:   ; ":   : : ' ::'~ : "';""   ..... .. -. -: ---
                                                                   ~                ...
                                                                               ..... .-".. ~...----- -	                                                        l
                                                                                                Attachment

                             NEW
                           . ORLEANS
                                       Puuuc
                                                                         ACCOUNTS PAYABLE SECTION
                                               SCHOOLS
                                                                                   NEW ORLEANS. LOUISIANA 7Q1J4




    Dear PdDdpaljDepL

    We. hive not readvcd approvals OD the PIITcha.se orciotl11&tcd below:




    If deliv~ is complete and merchandise is satisfactory. please fon   ' reen co OfpurcJlsse orne (or if the green
    copy has been sent, please send a slgnod copy of the purc:hase order) to the attent: <;In 0    er$/gned In dlc
    Accounts Payable Section. WE THANK YOU FOR. YOUR COOPERATION.

    Jf approval is being withheld. pioase stato the reason below and retum this coDY only at once to the Accounts
    Payable Section. Also, please specifY whether you contactcd vendors concerning any difficulties,

    Ifyou have any questions. pleaso can.

    Very truly yours,




FORM NO.: AP 001 (1!I981
While. School/Dept. ReiponH Copy                   Yellow· SchooIfDept. Copy
      ~ .-~ ...~ • ID M   Aft""","" Withheld
    SEP. 23. ~       1.::; c;c1' \                                  •   •

    SUCCESS FOR ALL FOUNDATION, INC.
                     P.O. Box 17484
               BALTIMORE. MO 21297-1484 

                   ElN *52·2061820 

                    (410) i16·23oo



S1l.l '1'0:                                                                    Sh1p To;

lIarb.:. C. Jordan Zl.mentazy                                                  Ba:bara C. Jorden Zlementary
4348 Rap.. 8=••1:                                                              4348 Reynes Street
N•• orlean. LA              7G126                                              New Orlean. LA                    70126




              791-3135                                                                                               fl' 0000           nl.oo
              79l-3136                                                                                              ..":0000           "".00
              791-3137                 «;Wade lC - Co~"l.o nt.                                                       '''4 . 0000       UU 00
              7~1-3124                 ,.......,. IIn1, kY JC 11 K'I                                                Ilt'.OOOO .        iUI.OO
       I      791-30511                HII , ..ClIft KAt! 'rUl.lllY 'eAGO!                      1C1~                 Ui.OGOO            Ul.OO
       2'     191-2992                 tUWE Kt.tl I.e" J. " VLn tD'lll 1V1lnlll                   KU                "U,DOOO            n .... oo
       2      791-2937                 tI9 Q~ 1 "'IIlJll,l1.lt.ha Ut.                                               "U.OO~O            "11 . 00
       2      '791-3069                &l'a4a l l:aM1iIIIlIl.    Ka~lQt.~,..   XJ. t                                 fif.aolJO         fUt.OO
       2      791-3003                 T..   w. ~U'I 101..1 II lSKlf                                                IJtJ.oooa          Utl .oo
       2      791-2948                 ldI Gte. . , o-rc1.l1 Mal\1.J\/UtUI kh                                       ff".0400           ,t,..OO
       2      7S1-30BO                 .., ~ J toII#.uLa 1U1'I,~uu... lln                                            'U.oooo           flU.GO
       1 791-2497                      1U lllt.UlIII.u.a" khool      H&nlpvb~h'a         nt                         $lu-.ooOa          rtu.OO
       2 791-29.59                     IIIf OUR)         c:c-a",u 1Ib\~",lI tl'"       IC1I1:                       "".OOGO          fl . U •• OO
       2 791-1401t                     HI'   ~r   1   ean'lIII lIanlJlollUv& It1t                                    ,1,.0000            ,31 . 00
       2      791-2970                 ttl GnQ- , eo.ucul Mlnipll1.ct....              IC&.~                        "".0000          fl . ln .OD
       2      7~1-l419                 OIr&M • CoII•..cl. ICUI1P\11Id... ICLt                                        n •• oooo           ''' .0()
       J      791-2981                 Gn;!o s; e-,c:l" HIIll1polaU•• leit.                                         ,UI . OOOO       n . Of' .OQ
       3      791-142.0                w;f A.I •   1laII1. ~PU&.",", k1r.                                            U'.aoOD           511 1.00




                                                                     account,                                                           $0.00
                                                                                                       Mise
                                                                                                       'l'ax                             ~O.QO
                                                                                                       Freiqbt                           $0.00
                                                                                                        Discount                       ~O.OO
                                                                                                       Tota.l                      nO,810.00
                                                                                                 •_ _u.t.   ..


                                                                                                                                    P.ll
                                                                                                             Attacbment
 .)RLEANS ~R1SH SCHOOL BOARD
       ',' "-P.Ut1CHASING DEPARTMENT
               3510 GEN. DEGAULlE DR•
              . NEW ORLEANS. LA 70114
                 PHONE: (604) 365·5500
                  FAX: (504) 385--5509
                 FAX: (504)365-5511                                                         SHIP TO:
                                                                                               Title I Department
                                                                                               3500 General DeGaulle Drive
                                                                                               New Orleans t LA 70114
                                                                                               United States
                                                                                            BILL TO:
    VENDOR: 	 CORPORATE BUSrNBSS SUPPLIES                                                       Aoooants Pa}~le
              273 PLAUCHE STREET                                                                3510 General DeGaulle Drive
              HAR.A.lmN t LA 70123                                                             suite   487
                Onited ·States                                                                 New Orleans, LA 70114
                                                                                               Onited States
                         VEHDORHO.
                          5334.
    ~
 'a t 30




       REQ#55748            MARK FOR                                         319      12-805-6101-515            -0612-0000­
       CONNEC TABLES TOP                                                     B.OO Each           96.8                  775.0
       CNR2460 FINI S H CACM)
       CHBRRY
       CONNEC TABLE FOWING                           29-JUL-02             16.00 Each                   94.                    N
       LEGS CNTELEG24-218
       CONNEC TABLES GANGING                        29-JUL-02              12.00 Each                                          N
       FLUSH PLATE CNGJ'P

~      CONNEC TABLBS BRAKING                         29-JOL-02             32.00 Each                                  30e.    N
       CASTBRS CNCB

5      SALERNO 4371-4 CHAIR                          29-JUL-02             40.00 Each                  244.                    N
       COLOa l HUN'l'ER. GRBE
       LBARHBR/MOCK LEATHER.
       ~S8/558-COLOR              CODE
       SALERNO 4370-3 CHAIR                          29-JOL-02               1.00 Each                                         1\
6
       COLOR: HUNTER GRlmR
       LEATHER/MOCK LRATHER
       4SS/55B-CLOR CODE




I'ricM Ind~i'ed .,.. "not to exceed" wfthout prior approval from 1M PurcMUIHI fto_hMlllt.
:.Jnapprovtd \ncr..... will not be 1\OnOnct.
The Or18al1S Parish School Board is Exempt From All Federal Taxw
3J1Cf CRy Sales Taxes.
,     I   I    •




                       \",Vru--~KA.l.t!, .J:SU:lINHSS SUPPLIES, INC.     Attachment
                          ,     Your Slngle Source Supplier"
                                                273 PLAUCHE STREET
                                          HARAHAN, LA 70123
                               PHONE (504) 734.3072 FAX (604) 734-3035     •      J Of'      l

                                                                         273 Plaui::h. ~t
                                                                         H&rahan, LA 70123




                   aRLEANS PARISH SCHOOL BOARD (2)
                   3ii,o~ ,&EN;. DESAlt' E DR.
              : . .~INS DEPARTMENT
                   NSi' ORLEANS, LA 7811'"




                                      UanRS:8
                                      Ua.8
                                      Ell 0IfP
                                      UaD
                                      Ell WI.
                                      U4m3
                                      lTD CI8




                                          _- -­ u
                      •                    .dd~
                               CHARGE will be      10 PAST
"101'£:1. 11'f."A'~V~~Et. al\ ANNUAL PERCENTAGE


=td
DUE ACCO""' .....•
........e                       . '.        when goods 1111
          '111~ Our rapoASlb Illy cea,~ ¥WI! not tN.
...... , ~ l!Ildllgntld For, Rolulnlld mar
           w\\tIOUt prior aPiJrO\°al.



                                                 f"ltQ'TnMER ORIGINAL
I   I   ,I     t    f




                                                                                                  Attachment




                                                                                          SOLE SOURCe JUSTIFiCATION
             SChooI/Department:~~~~~~L-~                           ________~_______________________________

             Requestor Name:
             Commodity or SSIVices:




             Initial elf entries below that apply to the proposed purchase. Attach a memaandum containing complete
             justification and support documentatio" as directed below. (More than one entrywlll apply to most sole source
             products I services requested).                 .

             1.JL 	              SOLE SOURCE REQUeST FOR THE ORIGINAL MANUFACTURER OR PROVIDER, THERE ARE NO
                                 REGIONAl. DtSTRIBUTORS. (Attach the manufacturer's written certification that no regional dfstrlbutors
                                 exist: the certlflcatlon will be vand for one (1) calendar year. Item No.4 also must be completed).

             2._             	   SOLE SOURCE REQUEST IS FOR ONLY THe METRO (NEW ORLeANS) AREA DISTRIBUTOR OF
                                 THE ORIGINAL MANUFACTURER OR PROVIDER. (Attach the manufacturer's· not the distribulol'$·
                                 written certification
                                              ,          .
                                                       that Identifies all regional distributors. Item No.4 also must be completed).

             3. 	                THE PARTS I E~UIPMeNT ARE NOT INTERCHANGEABLE WITH SIMILAR PARTS OF ANOTHER
                                 MANUFACTURER. (Explain In separate memorandum).
             4.~O                THIS IS THE ONLY KNOWN ITEM OR SERVICE THAT WILL MEET THE SPECJAUZED NEeDS OF
                                 THIS DEPARTMENT OR PERFORM THE INTENDED FUNCTION. (Attach memt)randum with detans
                                 of specialized function or application).
             5. 	                THe PARTS I EQUIPMENT ARE REQUIRED FROMoTHESOURCE TO PERMIT STANDARDIZATION.
                                 (Attach memorandum· describing basis for standardization request). 

                     ,

             6 . .J.r.:-	         The attaQhed requlsiUon has baen reviewed by the Compliance OffIcer.

                        InUeRi1Qf11e1J ~Q""nn that competitive procurement be waived and that the vendorldentlfied as 1he supplief'
                                                                           Justlflcatlon is authorized as a sole source for the service




                                                                                                               (DATE)

                           PLEASE FORWARD 11-116 COMrLETEO FORM AND SUPPORT DOCUMENTAll0N              TO niE PURCHASING DEP,.,1:TME

                        ROVED:                                                                     DATE:   _.a.::~+/~2&j~/~az:.---
             DISAPPROVEO:                                                                          CATE:
              REASON FOR DISAPPROVAL:
t.   •   I   ,




                                                                                                        Attachment

                                                                                      '710-323-5188
                                                                                                                p.l@
4n. 10 2002 11~20RM FUJITSU PC 




                         ~. ~.: ~
                   • ~    .:. r
                 ''* .· -1  , J
                   # . \" , ;
             ~,
             ., I
                       ".*t:.'~. :·."i
                       I    :    (..          l
             "..                        • f,
                 I..                .,'--...



     "   .• .          I·.               •



                                                                                     JUD~ 10, 2002

                       New               Sobools .
                       3500 General Degaulle
                       New Orleans~ LA 10114

                       Re: Sale Source I)cc;laration

                       Dear_ 

                       Per our CODvcrsa&ion. the Project 59 Race for Rcadi:naPJogrmn is ex~uBively provided 

                       by Project S9 fat Youth Fotmdation. Inc. 


                        The program contains:

                           Sc;hool Fact Survey 

                           S1dll Assessment Fonns 

                           Patent Guide 

                           ieachor 1nstr\lCtiolU 

                           Program lmpleroentation Guide 

                            Car Assembly Kits 


                           Please oontact if)'Ou have questiOl1S or require additional infannation.

                                •            :.:   I




                            -

                                                                              Attachment




                                             ..---' 

         SOLE SO{;RCE-INSTRliCTIONAL i\'L-\.TERlALS                     S3:~983.00




Requestor:                                  Little Woods Elementary School

Approving Administrative Staff Officer;                                      of Title   r
Designation bv CompUan-ce Officer:          General Bid




At the regular meering, August 13.2001. the School Board approved the purchase of Lighrspan
Program for Linle Woods Elementary through the: CSRD Grant. The Principal :5 reguesting the
purchase of additional materiais to expand the Lightspan Program to other grade levels. Funds
for this purchase are available in the Little Woods-rASA Instructional Supplies Account. The
rotal costoftbis purchase is 537,983.00.




RECOlVIMENDED ON 03/041 01 BY:




REVIEWED ON              031 041 01   BY;




A UTHORIZED ON           03/04/02     BY:
"

                                                                                                    Attacbment




                                                                               LGHTSPAN-
    September 5, 2Q03



                                      School
      a7 Martin LutlAar King BM:I.,
    New Orleans, LA 701Z6

    $ubj~:    Sole Source Lettar
    Oe8_
    Lightspan. Inc.   rs the sola source and proVIder of Lightspan products and selVices.
    LlghlRpan, Ine. 'holda and retains sole and exoJusfve OWMrship of, and aU righe, We, and
    Interest in and 1rO, (i) Ugh1splln Achieve NowTM, Llghtspan's K-8 lnteracllve currioulum software
    prodtfCtt (11) The l-lglUspan Netwo", UQhtspan-. eduoatiDnal acUvfty and reaource Jntemet
    service, and (ill~ Lightspan e<tuTMt As&essment™, Ughllpan's eduoelional &I. . . .ment Internet
    servlce (collectluely ref.ned to as -LfGhl8pan "ro~, Ughtspen holds to'. and exclusive
    title to and ow~rshlp of, andlor hOlds aD necessary and requisite riglIlS, anaee and authority
    to distribute. all'standard and optJonaJ features, functfonaJJty and seJYlces _ootated with the
     Ughtspan Prodects•
                      .
     Ughtspan so191y and exclusively owns all copyrights, trademarks. patents, trade sEtCretJ and any
     end all o\t1er irrtelleetUaf property a880Clated with 1I1e U.ghtapan ProdUC!ll. Ughtspan ia It» sole
     source and sole provider of the Ughtapan ProductS. Llghl.9pan Aohlev. Now, The Ughtspan
     Network and. ~9htspan eduTest AllMSment ar. °nat avaJlable for JlIfmase. IIcenslng or
     distTibution. dir8ctJy or IndJreetty. from any third party OEM or IllS• • Lightspan hOIdt and
     retains eny encf all necessary noenses, permits and other admlnletrattve suthO rlzatlons required
     to distribute ancB provJda fhe Ughtapan PnxIuob.           ,


     Vary truty yours,




                                                                                             10IotO ~ PoInt ()ri.:
                                                                                             So.! 0Iqt. Col' '12111·1510

                                                                                             H'''~ JOOS PHONE
                                                                                             l5"'lUCOII"'~
"   ,

                                                                                                             Attachment


        JRL Enterprise Contract 2003

        IntroducUon:
         JRL receiofed a dlreGt appropriation from the CongresslUSOOE for the ICanLeam System 

         on behalf of the Orleans Parish School Board. The direct appropriation was for hardware 

         and installation. ORL sa was to pay far the eoftwar. from TItle 1 fundi. The proposal 

          to the S8 for software was 52.3 njl/on for 3 years In an outright purchaae. or S2.5 for 

         a 3 year lease-purchale. JRL Intended to .ell the leasa purchase agreement on the 

         open merket, to derive its sale price of S6.9 miUlon. However.th. resolution adopted 

         by the ORL 58 Was mllWrltMn, and the board adopted the loWer amount n a leaN-purc;hase. 

         JRL decided not to pursue the Intereat amount and abaordld the Interellt charg... 


        Sole Source:
         Orleane Sdlool Board has eol. eource provisions in Itl purchallng practloee that mirror provision
         In the state procurement code. The effect Is 10 adopt In part state purchasfng regulations.

         The purchaH was Dt proprietary soft.ware. available only from one vendor, JRL JRL has 

         provided a sola source letter, and ORL sa created certtficatlon of sale source. JRL haa 

         provided additionailiola IOUr'CIt documentation from TX and AL 


         The stUdent software (eleatronlc textbook) was on the etate approvedlJBt of textbooks. 

         The additional remedial textbook (pre-Aigebra) and. management toftware (Explorer) 

         i8 only compaUble with th.. approved textbookl. All of the software .. proprietary and 

         is not sold through retailers. 


        Competitive Pricing:
         JRL proVided a summary of Ita oontnsca for GA and MS, as well aa Ita pricing. My revl.w
         of the prlolng fm21cates It i8 comp.ve, even aclvan~ous. when compared to the GAlM5
         contracts.

        Interest:
         In that JRL absorbed the Interest. TlUe 1 was not Charged Interest COIlS.

        RS 39:1554 (E) (state procurement code) provides, "E. Polltfc:el wbdMllon.author1Zed to adopt-thll Chapter.
         The procurement of supplIes, seMces. major repairs. and construction by a pollUcal subdMalon of this
         state ehall be In IIccordance with the provlstOntl of R5 38:2181 thro~h 38:2318, except that I( poDtt:a1
         subdMalons .'" autholizad to adopt an Of part 01this Chapter and lis accompanying regulllltIon8."

        RS 39:1410.60 C, [local govemment financ_) provides, "As used In thJe Section, the term -debt" or
         "evidence of debt" shall not Include a lease of a movable or an lnatallment purchase agreement
         contains. nonappropriation ciaua, and does not contaIn an antkubllUtution or penalty clause.
         provided that if such lease or Jnstallment purchue agreement III .ntered Into In·conjunc;tion with
         the leauance of bonds, notes. certff'lC8tes, or other obilptlDns Which would otherwis. be required to
         be approved by the state Bond Commltl8lon, State BGnd CommIMlon approval of such financing
         ttansacUon 8hall continue to be reqU1m:l."                                      .

        RS 39: 1596 (state procurement code] provides; ·Any procurement not exceeding the amount established
         by executive order... ..may be made In aocordance with the lmaU purc;haee procec:tIJres.... The relevant
         executive order proVides. "No oompetItIYe bidding Ie r.quJred... ..PublIcations and/or copyr1ghled materials
         purChased dlreotly from the publsher or copyrtght holder;"

        School board purchnlng regulatlOnl state, "A contract may be awarded fDr a required supply. service, or major
         repair who. under regulations.. the ChIef ExecutIve omcerlSUper\f\tendenl or designee detennlnes In wrrtinl1
·'
     .
     ,   I

              .
                                                                                    Attachment 





                  thai there is only one source for the ~ulred goods and servicl!
•       •   I       1
    I       I   I        ,




                         Message                                                                            Attachment   Page 1of 1



                                             '--'­   _ _ _ _ M _ __ _ _ __           _   •• _   _   __•_ _ __


                                                                                                                  ---_.._-­
                             From:
                             Sent:                                         AM
                             To:
                             c~:




                        I!!IInd attached 2003 sole source letter and email trail.

                        Let me know if you need anything el~e. I can be reached at




                                                         8:56AM



                        Bectronic copy of sole source document attached.




                         121912004 

                                                                                           Attachment



                                                              I CAN Learn"
                                                              Education Systems
JRL Enterprises, Inc.
3520 General DeGauile Dr.• Suite 1100.New Orleans, louisiana 70114. (504) 263-1380. Fax: (504) 283-1545
             Toll Free: (888) 263-1390. email: InfoGlcanleam.com. Website: www.lcanleam.com



       December 8,2004 .,      ~ Jd/d. 611'~                  4, ~t 

                                   d~ .. ~           ~...:.,i In .J.k<.o~~             

                                      ,(o.3{'~ ~. 

       ~    .       ':     .    c: Sci£~Js
       3S J0 General DeGauJle Drive
       New Orleans, LA 70114




      Please accepr this letter as our affirmation that JRL EnterpriseS:, .Inc. is tbe sole source for
      r CAN Learn· Education Systems. The "Interactive Computer Aided Natural Learning" &
      Education System. I CAN Learn e tor short, and I CAN Learn e is proteaed against
      imitations by U.S. Patents #5,267,865, #5,441,415, #5,788,508, #6,604,856, Des.
      385.431, European #0 656 139 and 12 foreign patents.

      JRL Enterprises, Inc. is the sole manufacturer and distributor ofI CAN Learn~
      Educational Systems. An independent study by the University of New Orleans
      Department of Educational Leadership and a Louisiana Certified Program Evaluator
      concluded:

      "Sntdents in the 1 CAN Learn • classes significantly outperformed students in the
      teacher-only clalses regardless ofabmty level or gender. There is no doubt in my mind
      that students will learn more-and at an acceleraTed pace-if provided one-an-one, computer
      assilted, and teacher supported instruction that your product offers. The controll~d
      conditions under whioh we validated this approach provide compelling evidence ofits
      usefulness in improving student achievement. 1am aware of no other product that is .
      supponed by such empirically-based evidence ofsuccess."

      I lmst that this is sufficient information to certify our sole source quaJific:ations. Please
      call if there are my questions or iffurther infonnaDon is required.

      Sincerely,
                                                                                                        Attachment




Requestor Name:

Goods or Services:

Estimated expenditure ot the above nn/,"""...,




Check all entries below that appLy to the proposed purchase, (More than one entry will apply to most sole
source products I services requested). Attach a memorandum containing complete justification and support
documentatIon as directed be/ow.

1•
          ~./
     .......!:-	        SOLE SOURCE REQUEST FOR THE ORIGINAL MANUFACTURER OR PROVIDER, THERE ARE NO 

                        REGIONAL DISTRIBUTORS. (Attach the manl1fschff9r's writfen oertJffcatlonthat no reglonal dis1ributors
                        exist: the certification will be valid for one (1) calendar year. Item No.4 also must be completed).

2._                    SOlE SOURCe REQUEST IS FOR ONLY THE METRO (NEW ORLEANS) AREA DISTRIBUTOR OF
                       THEORIGINAL MANUFACTURER OR PROVIDER. (Attached the manufacturer's • not to distributors·
                       written cenlflcatlon that Identifies all regional distributors. Item No . .. also must be completed).
3. _ _,                THE PARTS I EQUIPMENT ARE NOT INTERCHANGEABLE WITH SfMILAR PARTS OF ANOTHER
                       MANUFACTURER. (Explain In separate memorandum).

4._                	   THIS IS THE ONLY KNOWN ITEM OR SERViCe THAT WILL MEET THE SPECIALIZED NEEOS OF
                       THIS DEPARTMENT OR PERFORM THE INTENDED FUNCTION. (Attach memorandum with details
                       of specialized function or application).

5._ 	                  THE PARTS I EaUIPMENT ARE REaUIREOFROM THE SOURCE TO PERMIT STANDARDIZATION.
                       (Attach memorandum-<iescriblnl1 basts for standardization request).

6. _ 	                 The aftached requisition has been reviewed by the Compliance Officer.

The undersigned request that competitive procurement be waived and thai the vendorIdentified as the supplier
ofthe se.rv\ca or material described in this sale source justification is authorized as a sale source forthe selVlee
        ria/.


                                                                                               (DATE)


                       (DIVISTON CHIEF)

NOTE: PLEASE FORWARD THIS COMP1..ETEO FORM AND 5UPPOKT DOC~amt.A'tlGR.':t~~~lJJ{(:HA5ING DEf"ARTMEHT



APPROVED:
                                                                               DATE: _ _ __
PISAP

REASON FOR DISAPPROVAL:
                                                                                                                              .. .   

                                                                                                                              oC



                                                                                                                              .

=
Q,J

j
y     JRL Cost Comparison

~     ClIent                             New Or1eans Public Schools 03     State of Mississippi 03     State of Georgia 02
-<    Cost per new cla88 purchase
      Quantity of classrooms                                         39                        2P                       9
      I CAN Leam Software                                 $150.000.00                $150,000.00             $150,000.00
      utilities Software                                  GrantJln kind              Grantlln kind             $2,500.00
      Hardware                                            Grantlln kind              Grantnn kind             $48,850.00
      Fumlure                                             Grantlln kind              GtantJln kind            $28.650.00
      Implementation                                                na                 $5,000.00                        na
      3yrService                                          GrantJln /dnd               $45,000.00               $50.000.00
      3 yr Service (comm link)                            Grantlln kind              GrantJln kind             $10.000.00
      3 yr Summer Conference                                        na                          na              $7,1e8.50
      Instalation                                         GrantIIn kind              Grantlln kind             $10.000.00

      SUb-tolal                                           $150,000.00               $2001000.00              $307.166..50 

      Total                                              $5.850.000.00             $4.000.000.00            $2.764,498.60 


      Coet for sirvlce axIIJtIng class
      Quantity of cfa9sroams                                         12                         na                      na
      UpgradeIMainlenance                                    $33,125.00                         na '                    na
      3 yrService                                           .$60,000.00                         na                      na
      Sub-toti                                              $931126.00                          na                      re
      Total                                              $1.117 .soo.oo
      Conbactto~          -   - -­          - -- --    - $6­
                                                         ,967,500.00                $4.000,000.00            $2.764.498.50

      Software coat: breakdown
      I CAN Learn Software                                  license qly                ~               extended class cpst
      Classroom Explorer                                               1              $25,000.00              $25,000.00
      Algebra                                                        30                $2,600.00               $75,000.00
      Pre Algebra                                                    20                $2.500.00               $50,000.00
      Pre Algebra (in kind)                                          10                    SO.OO                    $0.00
                                                                                             Total            $150,000.00
... ." . 

     ;,
    ~SS'         .,.   ,.
                                                                                                                                                      .,
                                                                                                                                                       .'   .
                                                                                                                                                            'S




                                                                             '.
                                                                                              ( . INVOICE)                                                           \.,.
                                                                                                             'I
                                                                                                                           ....    "



                                                                                                                                                                                                                               I
                                      AUDIO V.ISUAL MART, INC. 	                                                                                                                                                               "

                                                                 P.o. 80)( ~302Q 
                                                                                                        (    .
                                                                Har*han, LA 70183 

                                                                 <~) 733-1500 ~
                                                                                                        ",
                                                                                                          ..                                                                                                         J
                                                                                                                                                                                                                  !

                                                                                              .,
          SOlO 	        or)p&ns Plfrsh 3r.hool Soard                                           \   .~
                                                                                                          r:'        ro8HlJl wilker sr, ' High} SC'hoPl
          TO 	          ~SJO ~'i! neril'..p~G4ullu Or                                                                     2a~1          Oaneral Heytr. st.
                        Haw       Orl&Qn5, . l~                701J4                                                      HIN          orleans, LA 10114
                        ACCOUt/f, 'PAYf\B~ Eo ,                                                                                                                                 l
                                               ,.... 	
                                                                                                                                                                          "t

                                                                                                                                                                                "                                        ..,
-Dl'~1/Q               OAOl!l'l   em         C\IIJ~'IO.           Jt~             RIIICK4SEOiIIiIIl4
                                                                                                                                  ..   SfII.. W. .
                                                                                                                                                                     .                             Tl:fIU'

                                                                                  OI90192~
                                                                        .
     "lO.n             FlIb 17 03             15020               J.8
                                                                                                        ..... 

                                                                                                                     UP$M-Regu!ar r«ound                                                  Net 30 'Jay"                    I
                                       "'Y
                   o                   AYH..HtSC                            5l11Brtbo.rd  •                                                                1,889.00                                          ().oo
                   4              Q    AYt!~H19C                            Epson $~·pto1.ttor                                                              1,~S9 .. 00                               6,356.00
                                       §itda f NuMbers
                                       fYH021.L.Ll:$K,
                                                                              projectors. lte I I follow.,
                                                                                  OS~9K, 'Y"0310545~.    .,..
                                                                                                                                                                          /,..,...­
                                                                                                                                                            ....­   ../



                                                                                                         ....Ir                          .,,~'
                                                                                                                                                 '"
                                                                                                             ,
                                                                                                          f ••

                                                                                                                                                                                                              "
                                                                                    .' I.'.             . ....
                                                                                                         ~\
                                                                                                                 '
                                                                                                                                                                                              ."
                                                                                                                     ,/
                                                                                                         .........
                                                                                                         "'(




                                                                                                             I
                                                                                                             I
                                                                                                                 •




                                                          ..


                                                         .                                                                                                   TOTAL                  ...                G.~so.IN V
                 l~'d       .                            a1' (:~SS£ 10! 	                                                                                                           :~~ a~:sa £~~-;l-~~
                                                                                                            Attachment
. . . . . . . ." ,. ...... '" ~ . . . . . . . . . ." '•• " ' ' ' ' ' - 1J""",n", 

             PURCHASING DEPARTMENT
                    SUITE 4SO 

           3510 GENERAL de GAULLE CRIVE 

               NEW ORLEANS. LA 70114 

           PHONE:        (504-) 304.5649 

           FAX:          (504) 365.5509 
                                             SHIP TO:
           FAX:          (504) 365.5511 
                                                   Carver Senior High Sebool
                                                                                            3059 HIggins Boulevard
                                                                                            New Orl'e ans, LA 70126
                                                                                            united States
                                                                                      BILLTO:
VENDOR: APPLIED BUS'INESS CONCEPTS                                                          Accounts Payable
                     2829 VIRGINIA STREET                                                   3510 General DeGaulle Drive
                     KENNER, LA 70062                                                       Suite 487
                     United States                                                          New Orleans,LA 70114
                                                                                            United States
                                 Y!HOOItHO.
                                  5620
\!l1T lBi\4S.
et 30




             11.172.6101.51510.04
            TRAY FINISHER                                                            Each
      o SHIP TO:
        Address at top of




                                                                                                             7,247.00



                                                                                                      FILE
